           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     BENEFICIARY AND RECIPIENT
    USE OF “IN CARE OF” ADDRESSES

     August 2008    A-06-08-18015




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   August 19, 2008                                                                  Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Beneficiary and Recipient Use of “In Care of” Addresses (A-06-08-18015)



        OBJECTIVE
        Our objectives were to (1) ensure beneficiaries and recipients authorized their address
        changes to “in care of” the facilities identified on their payment records and (2) verify the
        facilities appearing on multiple payment records existed, cared for the beneficiaries and
        recipients, and were registered with the Social Security Administration (SSA) as
        representative payees if they were acting on behalf of the beneficiaries.

        BACKGROUND

        We initiated this review as a result of SSA staff concerns that some nursing homes may
        have instructed residents to change their address and/or bank account in SSA’s records
        to the address and/or bank account of the nursing home facility. Once the changes are
        completed, SSA would mail payments directly to the facility or electronically deposit
        funds into accounts controlled by the facility. Implementation of these changes without
        officially designating the facility as the beneficiary’s representative payee would allow
        the facility to avoid representative payee fiduciary responsibilities and potentially result
        in the illegal assignment of benefits. SSA staff expressed concern the changes may be
        done without regard to the resident’s mental capacity.

        SSA maintains a record of Old Age, Survivors and Disability Insurance (OASDI)
        beneficiaries’, Supplemental Security Income (SSI) recipients’ and their representative
        payees’ mailing and residential addresses. To ensure the accuracy of these addresses,
        SSA must evaluate and validate every change of address request. A change of
        address can be submitted in person, by telephone, in writing, or on the Internet. 1 The
        Social Security Act 2 protects beneficiaries by prohibiting the assignment of benefits.
        Assignment is the transfer of the right to, or payment of, benefits to a party other than

        1
         SSA, Program Operations Manual System (POMS), GN 02605.001.A, Change of Address (COA) – In
        Person, By Telephone, In Writing, and on the Internet.
        2
            The Social Security Act §§ 207 and 1631(d)(1), 42 U.S.C. §§ 407 and 1383(d)(1).
Page 2 - The Commissioner


the beneficiary or his/her representative payee. SSA policy states that
“Any arrangement in which the claimant shares control of the funds from his or her
benefit with person or entity that has an interest in charging or collecting money from
the claimant is an assignment-like situation that violates SSA’s policy.” 3

As of September 2006, payment records for approximately 167,000 OASDI
beneficiaries and 49,000 SSI recipients in current payment status contained some form
of the phrase “in care of” in the mailing address. We analyzed these records to identify
a sample of beneficiaries 4 with “in care of” addresses. The full Scope and Methodology
of our review is provided in Appendix B.

RESULTS OF REVIEW
In general, our review indicated beneficiaries authorized the address changes. Through
contacts with 21 facilities in 7 SSA regions, we verified that the facilities existed and,
when applicable, appeared to provide adequate care for the beneficiaries.

Our review also confirmed concerns raised by SSA staff regarding use of “in care of”
addresses. Based on our site visits to some facilities, it appeared “in care of” address
use facilitated the assignment of benefits or created assignment-like situations. At
five facilities we visited, staff acknowledged the beneficiaries retained no control over, or
had no access to, SSA payments. As a condition of residency, at least one facility
required that beneficiaries sign an agreement that formally assigned Social Security
benefit payments to the facility.

Further, through site visits, we identified 31 instances where facilities received
payments on behalf of beneficiaries who did not appear capable of managing their
benefit payments. None of these 31 individuals had a representative payee.

Most facilities we contacted were listed in SSA’s Representative Payee System.
However, these facilities were not the designated representative payee for any of the
individuals included in our review. Staff at several facilities we visited acknowledged
they preferred not to be the claimant’s representative payee. Staff at one facility
admitted the “in care of” arrangement helped avoid the administrative burden related to
accounting and reporting that SSA imposes on officially recognized representative
payees.

Finally, we identified a concern related to field office staff recommending SSA
beneficiaries send their payments “in care of” local check cashing/cash advance loan
businesses.



3
    SSA, POMS, GN 02410.001.D.2, Assignment of Benefits.
4
 We use the term “beneficiary” throughout the remainder of this report in reference to both OASDI
beneficiaries and SSI recipients.
Page 3 - The Commissioner


BENEFIT ASSIGNMENT FACILITATED BY USE OF “IN CARE OF” ADDRESSES

“In care of” addresses were used to facilitate the assignment of benefits or to create
assignment-like situations. Staff at 5 “in care of” facilities that received benefits on
behalf of 292 beneficiaries acknowledged beneficiaries retained no control over, or had
no access to, SSA payments. One facility that received benefit payments for
35 beneficiaries required the assignment of benefits as a condition of admission. To
illustrate, the facility required that beneficiaries sign an agreement that contained the
following language under a heading titled, Assignment Required: “As a condition of
your admission to the Community, you agree to assign to (facility name) all of your
assets and income, including but not limited to Social Security benefits and pensions.”

The agreement paragraph referenced above also directed the beneficiary “. . . to name
(facility name) as representative payee of your Social Security benefits and to take all
necessary actions to make (facility name) the payee of your other benefits.” However,
at the time of our review, SSA records indicated none of the 35 beneficiaries had
representative payees.

BENEFICIARIES INCAPABLE OF MANAGING THEIR BENEFITS

Site visits conducted at 10 facilities housing SSA beneficiaries identified 31 individuals
who did not appear capable of managing their own benefits. Staff at several facilities
visited stated the beneficiaries authorized the address changes. However, when we
attempted to interview these beneficiaries, they appeared to have physical or mental
impairments that indicated they were not able to manage their own benefits. We
advised applicable SSA regional personnel about our site visits and suggested SSA
consider further development to determine whether beneficiaries at these facilities need
a representative payee.

SSA policies recognize the Agency must be alert to situations indicating the need for
representative payment and act expeditiously to resolve such situations. 5 SSA policies
also recognize that changes of address to a nursing home, rest home, etc., may
indicate the entitled individual needs a representative payee. 6 However, SSA has no
method to alert itself to such situations where multiple beneficiaries use the same “in
care of” address to direct their payments to a particular third party.

This was demonstrated at a Detroit, Michigan, nursing home included in our review. At
the time of our audit, 14 SSI recipients received their payments “in care of” this nursing
home. While attempting to schedule a visit to this nursing home, we learned that, as a
result of health code violations, the Michigan Department of Human Services issued an
emergency order revoking the facility’s nursing home license. The facility lost its
license, and residents were dispersed to several new facilities. Once notified of the
closure, a local SSA staff member instructed the home to return payments to SSA upon

5
    SSA, POMS, GN 00501.005.E.2, Overview of Representative Payment.
6
    SSA, POMS, GN 02605.005.B.3, Questionable Addresses-COA.
Page 4 - The Commissioner


receipt. However, we found that the same SSA staff member was not aware of all the
“in care of” recipients residing at the nursing home. We provided him with information
about the 14 individuals.

“IN CARE OF” ADDRESS AVOIDS REPRESENTATIVE PAYEE RESPONSIBILITIES

Our site visits to “in care of” facilities indicated that SSA had designated most as
representative payee for one or more beneficiaries in their care. However, we found
staff at several facilities who acknowledged they preferred to avoid representative
payee appointment and/or encouraged beneficiaries to direct their SSA payments to “in
care of” the facility.

•     Seventeen facilities were recognized as representative payees in SSA’s
      Representative Payee System. However, we found that the 21 facilities we
      contacted were not officially designated as representative payees for any of the
      beneficiaries included in our review. Staff at one nursing home facility
      acknowledged use of the “in care of” designation was favored because it eliminated
      the administrative burden of accounting for and reporting use of benefits that SSA
      imposes on officially recognized representative payees.

•     Staff at eight facilities openly encouraged beneficiaries to have SSA payments sent
      directly to the facility. Staff acknowledged they provided change of address forms to
      new residents for use in changing beneficiary payment addresses to “in care of” the
      facility address. Once signed by the resident, the forms were sent to SSA for
      processing.

•     Staff at seven facilities indicated the facility preferred to avoid representative payee
      appointment.

“In Care of” Addresses Used by 5 to 14 Beneficiaries

We limited our site visits to instances where the same address appeared on 15 or more
beneficiaries’ payment records. However, our data indicated more than 1,300 “in care
of” addresses appeared on 5 to 14 beneficiaries’ payment records. Each of these
situations is potentially subject to the same benefit assignment or individual capability
problems discussed above.

SSA REFERRALS TO CHECK CASHING/CASH ADVANCE LOAN BUSINESSES

SSA staff at two field offices recommended beneficiaries send their benefit payments
directly to two local check cashing/cash advance businesses via the “in care of”
arrangement. SSA policy prohibits the practice of recommending the use of any
individual financial institution over another to receive SSA payments. 7 At the time of our
review, 91 beneficiaries had their payments either mailed to the businesses or

7
    SSA, POMS, GN 02402.030.A.1, Acceptable Types of Financial Institutions and Accounts.
Page 5 - The Commissioner


electronically deposited into accounts controlled by these businesses. Staff
acknowledged they referred SSA beneficiaries to these businesses. One field office
provided us a copy of a change of address form pre-printed with information needed to
affect the transfer of benefit payments to one of these businesses.

These businesses profited from these ventures by charging beneficiaries a 2-percent
fee to convert the SSA payment into cash, or through fees collected on cash advances
collateralized by their SSA payments. One SSA manager stated the field office recently
stopped issuing referrals to one check cashing/cash advance business because of
complaints about amounts withheld from benefit payments to satisfy cash advances,
and said the field office now refers beneficiaries to a different check cashing/cash
advance business. SSA staff should not engage in promotion of arrangements that
transfer control of funds from a beneficiary to a person or entity that has an interest in
charging or collection money from the claimant. 8

CONCLUSION AND RECOMMENDATIONS
Through site visits conducted in seven SSA regions, we verified that “in care of” facilities
existed, and when applicable, appeared to provide adequate care for the beneficiaries.
However, our site visits indicated the address changes were used to facilitate the
assignment of SSA benefits to third parties or resulted in assignment-like situations.
Our site visits identified 31 beneficiaries that did not appear capable of managing their
benefits and potentially required the assignment of a representative payee. Staff at
several facilities we visited indicated that they preferred to avoid representative payee
appointment. Staff at one facility visited directly acknowledged use of the “in care of”
designation was favored because it eliminated the administrative burden SSA imposes
on representative payees. Finally, we determined that, contrary to SSA policy, two field
offices recommended that beneficiaries use specific check cashing/cash advance
businesses to receive their SSA payments.

We recommend SSA:

1. Determine beneficiary capability when circumstances indicate the individuals may
   not be capable of managing their benefits (for example, directing benefits be paid
   “in care of” a nursing home, rest home, etc.).

2. Remind field offices to discontinue the practice of promoting/recommending use of
   any individual financial institution or type of institution over another.

3. Include steps in the Onsite Security Control and Audit Review (OSCAR) process to
   ensure field offices do not promote/recommend use of any individual financial
   institution or type of institution over another.




8
    SSA, POMS, GN 02410.001.D.1.
Page 6 - The Commissioner


AGENCY COMMENTS
SSA agreed with Recommendations 1 and 2. SSA stated it disagreed with
Recommendation 3, although it agreed that SSA personnel should not
promote/recommend use of any individual financial institution or type of institution over
another. SSA stated it believed the OSCAR guide was not a training tool or appropriate
mechanism for disseminating this information to its employees. See Appendix C for the
full text of SSA’s comments.

OIG RESPONSE

We appreciate SSA’s comments. Regarding Recommendation 3, we did not suggest
that SSA use the OSCAR guide merely as a training tool or as a mechanism to
disseminate information to its employees. Our recommendation was that SSA use the
OSCAR guide as a means to verify that field office staff comply with SSA prohibitions
against promotion of one financial institution or type of financial institution over another.
We are encouraged that SSA agreed its personnel should not promote or recommend
use of one financial institution or type of institution over another and will issue a
reminder to field office staff. We believe the Agency’s comments, in total, are
responsive to the intent of our recommendations.




                                                  Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
COA      Change of Address
OASDI    Old Age, Survivors and Disability Insurance
OSCAR    Onsite Security Control and Audit Review
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                       Appendix B

Scope and Methodology
To accomplish our objectives, we:

•   Reviewed applicable laws, regulations and Social Security Administration (SSA)
    policies and procedures governing use of “in care of” addresses, assignment of
    benefits, and acceptable types of financial institutions and accounts.
•   Interviewed Dallas Region and SSA Headquarters staff regarding use of “in care of”
    addresses.
•   Reviewed prior Office of the Inspector General reports and found none related
    directly to our objectives.

•   Obtained data from SSA payment records as of September 2006. We identified
    approximately 167,000 Old-Age, Survivors and Disability Insurance (OASDI)
    beneficiaries and approximately 49,000 Supplemental Security Income (SSI)
    recipients in current payment status that met the following criteria:

     Used addresses containing the words/phrases “In Care,” “C/O,” “Care,” “I/C,” or
      “ICO” and the address did not belong to an SSA field office.

     The payment record indicated the beneficiary/recipient did not have a
      representative payee.

•   Identified 228 “in care of” addresses that appeared on 15 or more OASDI payment
    records and 76 “in care of” addresses that appeared on 15 or more SSI payment
    records.

     We sorted the addresses by region and grouped the addresses into two
      categories: addresses that (1) appeared to be nursing home facilities and (2) did
      not appear to be nursing home facilities.

     We randomly selected two nursing home facilities and two non-nursing home
      facilities in each region. We did not include facilities in either the Atlanta or
      Dallas Regions because SSA had already either conducted or planned similar
      site visits in those Regions, and identified no “in care of” addresses in the Denver
      Region that appeared on 15 or more payment records. If a region had less than
      two facilities in either category, we selected the available addresses. The
      random selection process identified 23 “in care of” addressees in 7 SSA regions.




                                          B-1
       o To avoid situations where “in care of” addresses were used by beneficiaries
         on a short-term (1 or 2 months) basis, we obtained updated payment record
         information and verified the beneficiaries continued to use the same “in care
         of” addresses.

       o Facilities selected for review in each region are summarized on the table
         below.

                “In Care of” Addresses Selected for Review
               That Appeared on 15 or More Payment Records
                                                       SSA Region
                                   1     2         3    5   7       9   10    Total
               Nursing Homes:      2     2         2    2   2       2   1      13


          Non-Nursing Homes:       1     2         1    2   0       2   2      10

•   Performed site visits at 19 of the 23 selected facilities, and spoke with facility
    management about 2 of the remaining 4 facilities. We did not contact the other two
    facilities because one facility no longer met our criteria at the time of our site visits
    and the other facility lost its nursing home license. During our site visits at “in care
    of” addresses used as residences, we interviewed at least four judgmentally
    selected beneficiaries.

We conducted fieldwork from June through December 2007. The entity audited was the
Office of the Deputy Commissioner for Operations. We did not test the general or
application controls of SSA systems that generated electronic data used for this audit.
Instead, we performed limited testing on the electronic data and we found them to be
sufficiently reliable to meet our audit objectives. We conducted this audit in accordance
with generally accepted government auditing standards.




                                             B-2
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:        August 11, 2008                                                     Refer To: S1J-3

To:          Patrick P. O'Carroll, Jr.
             Inspector General

From:        David V. Foster /s/
             Executive Counselor to the Commissioner

Subject:     Office of the Inspector General (OIG) Draft Report, “Beneficiary and Recipient Use of ‘In
             Care of’ Addresses” (A-06-08-18015)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Attached is our response to the
           recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                       C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“BENEFICIARY AND RECIPIENT USE OF ‘IN CARE OF’ ADDRESSES ”
(A-06-08-18015)

Thank you for the opportunity to review and provide comments on this draft report.

Recommendation 1

Determine beneficiary capability when circumstances indicate the individuals may not be
capable of managing their benefits (for example, directing benefits be paid “in care of” a nursing
home, rest home, etc.).

Comment

We agree. Some beneficiaries are not capable of managing or directing their finances because of
their youth, mental or physical impairment. We will ensure that our field office (FO) staff
follow policy to properly determine beneficiary capability, and safeguard all beneficiaries'
benefits if they are not capable of managing their own funds through existing representative
payee procedures. Additionally, we will ensure that FO technicians are vigilant and alert to
situations indicating the need for a representative payee.

Recommendation 2

Remind FO staff to discontinue the practice of promoting and/or recommending use of any
individual financial institution or type of institution over another.

Comment

We agree. We will send a reminder to FO staff reminding them not to promote or recommend
the use of one financial institution over another for direct deposit. We plan to issue the
reminder by December 31, 2008.

Recommendation 3

Include steps in the Onsite Security Control and Audit Review (OSCAR) process to ensure FO
staff do not promote and/or recommend use of any individual financial institution or type of
institution over another.

Comment

We disagree. Although, it is important that personnel not promote/recommend use of any
individual financial institution or type of institution over another, the OSCAR guide is not the
appropriate mechanism for disseminating this information. The OSCAR guide is an audit
package used to review aspects of FO, Teleservice Center, and Program Service Center




                                              C-2
operations to ensure specific actions taken within those components are processed according to
established policies and procedures (items such as third party drafts, enumeration actions, and
time and attendance records are reviewed for accuracy, completeness, and adherence to
established guidelines). The OSCAR is not a training tool or a vehicle to disseminate
information to employees.




                                             C-3
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division, (214) 767-6620

   Jason Arrington, Audit Manager, (214) 767-1321

Acknowledgments

In addition to those named above:

   Ashley Moore, Auditor
   David McGhee, Senior Auditor
   Erica Turon, Senior Analyst
   Teresa Williams, Senior Auditor
   Mary Ann Braycich, Senior Auditor
   Lorrie Clement, Senior Auditor
   Regina Finley, Auditor
   Faisal Khan, Auditor
   David Mazzola, Audit Manager
   Abraham Pierre, Auditor
   Nichole Purnell, Program Analyst
   Brenda Williams, Senior Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-06-08-18015.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
